No. 19-61
IN THE SUPREME COURT OF THE UNITED STATES
MARITIME LIFE CARIBBEAN LIMITED, PETITIONER
V.

UNITED STATES OF AMERICA

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 22nd day of November 2019.
ISee Attached Service Listi
As required by Supreme Court Rule 33.1(h), I certify that the document contain 5,436 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
November 22, 2019

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
November 22, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-006 1
MARITIME LIFE CARIBBEAN LIMITED
USA

MICHAEL A. POLLARD
BAKER, MCKENZIE
300 EAST RANDOLPH STREET
SUITE 5000
CHICAGO, IL 60601
312-861-8000
MICHAEL.POLLARD@BAKERMCKENZIE.COM
WILLIAM V. ROPPOLO
BAKER, MCKENZIE
1111 BRICKELL AVENUE
SUITE 1700
MIAMI, FL 33131
305-789-8900

